No. 20-1143
IN THE

Supreme Court of the United States
DENISE A. BADGEROW,
Petitioner,
v.
GREG WALTERS, et al.,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF SERVICE
I, Thomas G. Saunders, a member of the bar of this Court, hereby certify that, on
this 17th day of September, 2021, all parties required to be served have been served
copies of the Brief for Securities Industry and Financial Markets Association as Amicus
Curiae Supporting Respondent in this matter by overnight courier to the addresses
below.
DANIEL L. GEYSER
HAYNES AND BOONE, LLP
2323 Victory Avenue, Suite 700
Dallas, TX 75219
(303) 382-6219
daniel.geyser@haynesboone.com

LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com

THOMAS G. SAUNDERS
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6536
thomas.saunders@wilmerhale.com

